              Audit Report



The Social Security Administration’s
 Process to Identify and Monitor the
   Security of Hardware Devices
     Connected to its Network




       A-14-13-13050 | October 2013
MEMORANDUM


Date:      October 1, 2013                                                    Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   The Social Security Administration’s Process to Identify and Monitor the Security of Hardware
           Devices Connected to its Network (A-14-13-13050)

           The attached final report presents the results of our audit. Our objective was to determine
           whether the Social Security Administration’s process for identifying and monitoring hardware
           devices connected to its network effectively differentiated unapproved devices and ensured
           devices were at a reasonable system security level.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
The Social Security Administration’s Process to Identify and
Monitor the Security of Hardware Devices Connected to its
Network
A-14-13-13050
October 2013                                                               Office of Audit Report Summary

Objective                                  Our Findings

To determine whether the Social            While the Agency has a process to identify hardware devices
Security Administration’s (SSA)            connected to its network, we determined the Agency’s inventory
process for identifying and monitoring     was incomplete and inaccurate. Additionally, SSA did not approve
hardware devices connected to its          all of the hardware devices connected to its network. Moreover,
network effectively differentiated         although SSA has processes to monitor the security level of
unapproved devices and ensured             connected devices, these processes were inconsistent with Agency
devices were at a reasonable system        policy in effect at the time of our audit.
security level.
                                           Our Recommendations
Background
                                           We recommend the Agency:
SSA’s Fiscal Year 2012 Federal
Information Security Management Act        1. Pursue implementing systems, through a risk-based process, to
of 2002 report stated that its automated      ensure only approved and security-compliant hardware devices
processes identified 276,165 hardware         are connected to its network.
devices connected to its network. SSA
uses automated tools to provide the        2. Revise its policy to document who or which Agency component
Department of Homeland Security               manages each hardware device connected to its network and is
with security metrics. The metrics            responsible for adequately securing these devices. The policy
include the number of hardware                should better describe and define roles and responsibilities for
devices connected to the network,             monitoring security levels for all hardware devices.
whether there are secure configuration
                                           3. Ensure hardware devices identified in this audit are at a
baselines, and the number of certain
                                              reasonable security level.
security incidents detected.
                                           SSA agreed with our recommendations.
We selected a sample of hardware
devices identified by the Agency’s
network scanning tool to determine
whether SSA approved these devices
and the devices were operating at a
reasonable system security level.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Hardware Device Information Missing in Agency Systems......................................................3
     Network Scanning Tool Unable to Provide Sufficient Hardware Identification .......................4
     Not All Hardware Devices Are Approved for Connection to the Network ...............................7
     Monitoring Process Inconsistent with Policy ............................................................................8
Conclusions ....................................................................................................................................10
Recommendations ..........................................................................................................................10
Agency Comments .........................................................................................................................11
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Missing Device Identifiers .................................................................................. B-1
Appendix C – Glossary of Terms ............................................................................................... C-1
Appendix D – Agency Comments .............................................................................................. D-1
Appendix E – Major Contributors...............................................................................................E-1




SSA’s Process to Identify and Monitor the Security of Hardware Devices (A-14-13-13050)
ABBREVIATIONS
DHS                  Department of Homeland Security

FISMA                Federal Information Security Management Act of 2002

FY                   Fiscal Year

ISSH                 Information Systems Security Handbook

NIST                 National Institute of Standards and Technology

OIG                  Office of the Inspector General

OMB                  Office of Management and Budget

SP                   Special Publication

SSA                  Social Security Administration

TSRP                 Telephone System Replacement Project

U.S.C.               United States Code




SSA’s Process to Identify and Monitor the Security of Hardware Devices (A-14-13-13050)
OBJECTIVE
Our objective was to determine whether the Social Security Administration’s (SSA) process for
identifying and monitoring hardware devices connected to its network effectively differentiated
unapproved devices and ensured devices were at a reasonable system security level. 1

BACKGROUND
Each Federal agency must submit an annual report to the Department of Homeland Security
(DHS) 2 providing an overview of the adequacy and effectiveness of its information security
policies, procedures, practices, and compliance with the Federal Information Security
Management Act of 2002 (FISMA) requirements. 3 SSA uses automated tools to provide DHS
with security metrics. The metrics 4 include the number of hardware devices connected to the
network, whether there are secure configuration baselines, and the number of certain security
incidents detected. OMB includes these metrics, along with those of other Federal agencies, in
its annual FISMA report to Congress. 5 SSA’s Fiscal Year (FY) 2012 FISMA report 6 stated that
its automated processes identified 276,165 hardware devices connected to its network, which it
stated represented 100 percent of the hardware devices connected to its network.

SSA has an automated tool that scans its network and identifies hardware devices. This
inventory is available at an Agency level. SSA stated that as of January 2013, it had about
326,000 hardware devices connected to its network. 7




1
 For the purposes of this review, we defined a reasonable system security level to be one where the manufacturer
supports the operating system and the device is at a current release.
2
  Office of Management and Budget (OMB), M-10-28, Clarifying Cybersecurity Responsibilities and Activities of
the Executive Office of the President and the Department of Homeland Security (DHS), July 6, 2010. Among its
other responsibilities, DHS oversees the Government-wide and agency-specific implementation of, and reporting on,
cyber-security policies and guidance.
3
    Pub. L. No. 107-347, Title III, Section 301 §3544(c)(1), 44 U.S.C. §3544(c)(1).
4
    These are a sample of the metrics reported to DHS.
5
 OMB, Fiscal Year 2012 Report to Congress on the Implementation of the Federal Information Security
Management Act of 2002, March 2013.
6
    SSA, Chief Information Officer Section Report, 2012 Annual FISMA Report.
7
  The Agency’s network scanning tool provided this number and it represents the network addresses connected to
the Agency’s network. This does not represent the Agency’s hardware inventory, as there could be multiple
network addresses for a hardware device; and the network scanning tool cannot enumerate devices that are turned
off. SSA stated it was replacing desktops and refreshing servers in January 2013. This explains the difference
between what the Agency reported in its FY 2012 FISMA report, and the number they provided in January 2013 for
this review.



SSA’s Process to Identify and Monitor the Security of Hardware Devices (A-14-13-13050)                             1
OMB requires that agencies protect Government information commensurate with the risk and
magnitude of harm that would result from its loss, misuse, or unauthorized access. 8 Agencies
must remain vigilant to defend information systems, especially in a resource-constrained
environment, while balancing system security with operational capability through a
risk-management process. 9

To achieve our objective, we reviewed SSA’s processes for identifying and monitoring hardware
devices connected to its network. We categorized the hardware devices based on the operating
system provided by the Agency’s network scanning tool. We selected a sample of hardware
devices by the various categories to determine whether SSA approved these devices and the
devices were operating at a reasonable system security level. For the purposes of this review, we
defined a reasonable system security level to be one where the manufacturer supports the
operating system and the device is at a current release. For additional scope and methodology,
see Appendix A.

RESULTS OF REVIEW
While SSA has a process to identify hardware connected to its network, it needs to improve the
process to comply with Federal requirements. 10 Although SSA stated it identified all hardware
devices connected to its network, we determined the Agency’s inventory of hardware devices
was incomplete and inaccurate. Additionally, SSA did not approve all of the hardware devices
connected to its network. 11

Further, the Agency’s processes for monitoring 12 reasonable system security levels for hardware
devices connected to its network were inconsistent with SSA policy. Additionally, not all
hardware devices were operating at a reasonable system security level. 13




8
 OMB Circular No. A-130, Revised, (Transmittal Memorandum No. 4), Management of Federal Information
Resources, 8.a.1.(g).
9
 DHS, FY 2012 Reporting Instructions for the Federal Information Security Management Act and Agency Privacy
Management, FISMA 12-02, February 15, 2012.
10
  FISMA requires that Federal agencies comply with Federal Information Processing Standards and therefore
agencies may not waive their use; they are compulsory and binding. National Institute of Standards and Technology
(NIST), Federal Information Processing Standards Publication 200, Minimum Security Requirements for Federal
Information and Information Systems, March 2006 requires agencies meet minimum security requirements through
the use of security controls in accordance with NIST Special Publication (SP) 800-53. NIST SP 800-53 includes
security controls for information system component inventory (CM-8).
11
     This represents sampled hardware devices where SSA could not provide acquisition documentation.
12
     Monitoring in the context of this review means to ensure the hardware device is at a reasonable security level.
13
     See Footnote 1.



SSA’s Process to Identify and Monitor the Security of Hardware Devices (A-14-13-13050)                                 2
Hardware Device Information Missing in Agency Systems
SSA provided a list of hardware devices connected to its network. 14 From this list, we selected
183 devices to review. We found that for 48 hardware devices, the device specifications, 15
machine name, 16 or network address 17 was incomplete. FISMA reporting requires that agencies
report the number of hardware devices where SSA collects these details as part of asset
management. 18 Additionally, Federal standards list these detailed items, along with others, as
information to achieve effective property accountability. 19

FISMA requires that Federal agencies secure information systems that support their operations
and assets. 20 In doing so, agencies must assess the risk and magnitude of harm resulting from
unauthorized access. Agencies must know what devices (authorized and unauthorized) are
connected to its network so they can secure those devices. In its FY 2012 FISMA report to DHS,
SSA reported it identified 100 percent of its hardware devices connected to its network. Per
FY 2012 FISMA reporting guidance, 21 agencies must provide the number of devices for which
they were able to collect the (1) network address, (2) machine name, and (3) unique hardware
number or serial number. 22

We used multiple SSA tools 23 to locate required hardware device information. For
85 (46 percent) of 183 sampled hardware devices, SSA’s tools provided all required information.
For 48 (26 percent) of 183 sampled hardware devices, 1 or more pieces of required information
was missing 24 (see Appendix B for details). Further, we removed 50 (27 percent) of
183 hardware devices from our sample 25 (see Table 1). In addition, after we finished our
fieldwork, we noted that SSA updated one of its tools to more easily provide the unique
hardware number.



14
     See Footnote 7.
15
     Can include serial number or unique hardware number.
16
     The name assigned to a hardware device connected to the network.
17
     A unique way to identify the location of a hardware device on a network.
18
     DHS, FY 2012 Chief Information Officer Federal Information Security Management Act Reporting Metrics, p. 15.
19
 NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information Systems and
Organizations, August 2009, p. F-44, CM-8.
20
     Pub. L. No. 107-347, Title III, Section 301 §3544(a)(2), 44 U.S.C. §3544(a)(2).
21
     DHS, Supra note 18, p. 15.
22
     This is a key FISMA metric, meaning the expected level of performance is adequate security.
23
     See Appendix A.
24
 Some hardware devices, by their nature, may not have one of the required pieces of information. In these cases,
we did not count that as missing information for the sample.
25
 Thirteen sampled hardware devices were no longer connected to the network, and 37 sampled hardware devices
were misidentified as described in the next section of the report.



SSA’s Process to Identify and Monitor the Security of Hardware Devices (A-14-13-13050)                             3
                        Table 1 – Hardware Device Information in SSA’s Systems
                                                                           Number of       Percent of Total
             Availability of (1) Computer Network Address,                  Sampled           Sampled
              (2) Machine Name, and (3) Unique Hardware                    Hardware           Hardware
                        Number or Serial Number                             Devices            Devices
            All Information Available                                           85                 46
            One or More Pieces of Information Missing                           48                 26
            Removed from Review 26                                              50                 27
                                    TOTAL                                       183                   99*
           * Numbers do not add up to 100 due to rounding.

Network Scanning Tool Unable to Provide Sufficient Hardware
Identification
The Agency’s network scanning tool 27 provided incorrect results for 40 (22 percent) of
183 sampled hardware devices. For example, the Agency’s network scanning tool identified
37 (20 percent) of 183 sampled hardware devices as Toshiba digital copiers (an Input/Output
peripheral), but we determined these devices were Telephone System Replacement Project
(TSRP) 28 equipment. We reclassified the Toshiba digital copiers as TSRP telephones (see
Table 2). In this instance, the misidentification of hardware equipment is a lower risk to the
Agency since SSA monitors TSRP telephones but does not monitor Input/Output Peripherals. 29




26
     Id.
27
     This tool uses weighted criteria to identify the operating system of hardware devices connected.
28
     TSRP is SSA’s project to implement transport voice traffic (telephone calls) over its network.
29
     SSA stated it had not found a commercial tool to monitor Input/Output peripherals.



SSA’s Process to Identify and Monitor the Security of Hardware Devices (A-14-13-13050)                        4
                       Table 2 – Hardware Devices Connected as of January 2013
                                                                    Original
                                                      Original      Percent     New      Percent
                   Hardware Category30                 Count        of Total    Count    of Total
              Desktop                                 131,561        40.36     131,561    40.36
              Input/Output Peripheral                  92,647        28.42      18,032      5.53
              Network Device                           48,803        14.97      48,803    14.97
              TSRP Telephone                           17,037          5.23     91,652    28.12
              Multi-Platform                           14,327          4.40     14,327      4.40
              Server                                   11,154          3.42     11,154      3.42
              [Unknown]                                 4,940          1.52      4,940      1.52
              Appliance                                 3,097          0.95      3,097      0.95
              Storage Device                            1,050          0.32      1,050      0.32
              Video Device                                571          0.18        571      0.18
              Virtual Machine                             561          0.17        561      0.17
              Server/iSeries                              172          0.05        172      0.05
              Uninterruptable Power Supply                 58          0.02         58      0.02
              Private Branch Exchange                       3          0.00          3      0.00
                           TOTAL                      325,981                  325,981     100*
            * Numbers do not add up to 100 due to rounding.

As of January 2013, SSA had 4,940 hardware devices that were not associated with an operating
system and were reported as “unknown” (see Table 2). When the Agency’s network scanning
tool cannot identify an operating system, it classifies the system as “unknown.” This represented
about 1.5 percent of all hardware devices connected to the Agency’s network as of January 2013.
In its FY 2012 FISMA report, 31 SSA stated that it could track the installed operating system
vendor, product, version, and patch-level combination(s) in use on the hardware devices. 32

We sampled 50 hardware devices categorized as unknown. Using SSA tools, 33 we determined
that 17 (34 percent) of 50 sampled hardware devices were used in the TSRP implementation, and
10 (20 percent) of 50 were network devices. However, for 18 (36 percent) of 50 devices, we
obtained some details about the operating system but not enough to identify the device. Finally,
5 (10 percent) of 50 unknown devices were no longer connected to SSA’s network (see Table 3).



30
     Descriptions of the hardware categories are located in Appendix C.
31
     SSA, Supra, note 6.
32
     DHS, Supra, note18, p. 16, question 2.4.
33
     See Appendix A.



SSA’s Process to Identify and Monitor the Security of Hardware Devices (A-14-13-13050)              5
                                   Table 3 - Unknown Hardware Devices
                                                                     Number of           Percent of
                                                                      Sampled          Total Sampled
                                                                     Hardware            Hardware
                            Identification Status                     Devices             Devices
              Identified as TSRP Devices                                 17                   34
              Identified as Network Devices                              10                   20
              Unable to Identify and Locate Device                       18                   36
              Device no Longer Connected to Network                       5                   10
                                  TOTAL                                    50                 100

Because cyber-security is an important factor for agencies to provide essential services to
citizens, in FY 2011 the Administration identified continuous monitoring 34 as one of three
FISMA priorities. 35 Furthermore, DHS affirmed that asset management was one of the first areas
where continuous monitoring needed to be developed. Agencies must know which hardware
devices are connected before they can manage the devices for vulnerabilities. 36

According to FY 2012 FISMA 37 reporting requirements, agencies must provide DHS the number
of hardware devices connected to their respective networks where a computer-generated report
provides Agency-level inventory information. 38 An accurate and current inventory, controlled by
tools that scan network addresses managing configuration, can reduce the chance of attackers
finding unauthorized and unprotected systems to exploit. To identify weaknesses, agencies rely
on their ability to correctly identify the operating system of hardware devices. If the Agency
cannot correctly identify the hardware devices connected to its network, it is unable to manage
the necessary security controls. 39 However, the Agency uses layers of security – such as
intrusion detection systems and system monitoring – to identify indicators of potential issues
before they occur.

In January 2012, SSA developed a Cyber Security Engineering Strategy, 40 in which it stated the
Agency plans to improve its ability to secure hardware devices by addressing “. . . audit findings
in the area of network access controls to eliminate the ability for an unknown hardware device to


34
  Continuous monitoring is a technique to address the security impacts on an information system resulting from
changes to the hardware, software, firmware, or operational environment.
35
     DHS, Supra, note18, p. 5.
36
     Id. at p. 17.
37
     Id. at p. 15.
38
  This control was selected as one of the highest impact controls for government-wide application based on input
from multiple cyber security experts, who considered public, private, and intelligence threat information.
39
     DHS, Supra, note18, p. 17.
40
     SSA, Cyber Security Engineering Strategy, January 2012, p. 7.



SSA’s Process to Identify and Monitor the Security of Hardware Devices (A-14-13-13050)                             6
attach to SSA's network.” During our review period, SSA provided a presentation 41 in which it
stated it is “. . . investigating the feasibility of implemented [sic] a Network Access Control
Solution” to mitigate network access control findings. According to the Agency, “. . . this
solution will verify all systems meet SSA configuration requirements prior to being permitted to
access production network resources.” We believe the Agency should pursue implementing
systems, through a risk-based process, to ensure only approved and security-compliant hardware
devices are connected to its network.

Not All Hardware Devices Are Approved for Connection to the
Network
We reviewed a sample of 162 hardware devices to determine whether SSA approved them to be
connected to its network. 42 We found that SSA had not approved all of the devices we reviewed.
Per SSA’s Information Systems Security Handbook (ISSH), 43 hardware devices are considered
approved to be connected to the Agency’s network as long as they are procured through an
SSA-sanctioned requisition process. 44 However, SSA has no approval process ensuring
hardware devices are adequately secured after purchase. According to FISMA, Federal agencies
are required to provide information security to reduce the risk of unauthorized access. 45 Also,
Federal guidelines 46 state agencies should include in their inventories, information deemed
necessary by the organization to achieve effective property accountability; this can include
system owner. 47 More specifically, FISMA reporting requirements state that a hardware device
is approved when it is assigned to a particular person or group at a low enough level to ensure
effective responsibility and security.

For 55 (34 percent) of 162 sampled hardware devices, we verified that SSA approved the
hardware connected to its network. We found 82 (51 percent) of 162 sampled hardware devices
were not approved before they were connected to the Agency’s network. 48 For 25 (15 percent)
of 162 sampled hardware devices, 49 there was not enough information to determine whether the
devices were approved (see Table 4). There was not enough information because SSA’s
processes to identify a system owner were inconsistent and undocumented.




41
     SSA, Office of Information Security, Division of Technical Operations.
42
     See Appendix A for sampling methodology.
43
     SSA, ISSH Version 2.7, April 2013 § 11.3.1.
44
     SSA’s procurement process does not ensure the device is secure.
45
     Pub. L. No. 107-347, Title III, Section 301, 3544(a)(2)(A) – (C), 44 U.S.C. §3544(a)(2)(A) – (C).
46
     NIST SP 800-53 Revision 3, August 2009, p. F-44, CM-8(a).
47
     An individual or organizational unit responsible for the operation and maintenance of hardware device.
48
     This represents sampled hardware devices where SSA could not provide acquisition documentation.
49
     Twenty-two of these were part of the unknown hardware category.



SSA’s Process to Identify and Monitor the Security of Hardware Devices (A-14-13-13050)                        7
                                    Table 4 –Approving Hardware Devices
                                                                                       Percent of Total
                                                          Number of Sampled           Sampled Hardware
                            State                         Hardware Devices                 Devices
        Approved to be Connected                                    55                            34
        Not approved to be Connected                                82                            51
        Not Enough Information Available                            25                            15
                       TOTAL                                       162                           100

It is essential to ensure hardware devices operate as intended. SSA cannot achieve this without
proper policies and procedures to ensure hardware devices are approved prior to installation.
SSA stated it has layers of security controls in place to reduce the probability of threat.
However, a key goal of managing hardware is to identify and remove unmanaged hardware
devices before they can be exploited and used to attack other assets. 50 In July 2013, after
completion of our fieldwork, SSA implemented a revised policy 51 for managing hardware,
software, and platform configuration. We reviewed the revised policy and believe it begins to
address our concerns but is still vague on who manages all of the hardware devices. We believe
SSA should revise its policy to document who or which Agency component manages each
hardware device connected to its network and is responsible for adequately securing the device.

Monitoring Process Inconsistent with Policy
The Agency had processes for monitoring 52 most hardware devices connected to its network to
ensure they operate at a reasonable system security level. However, the processes were
inconsistent with policy in effect during our audit period. Further, SSA did not have processes to
monitor input/output peripherals, appliances, or uninterruptable power supplies – about 6 percent
of the hardware devices connected to its network. We found that groups in SSA’s Headquarters
monitored 59 of 162 sampled hardware devices. 53 We found that SSA local managers (outside
the Office of Systems) were responsible for monitoring 9 of the 162 sampled hardware devices.
However, managers we interviewed did not understand they were responsible for monitoring the
sampled devices, so they did not monitor security in compliance with SSA’s ISSH. 54 There was




50
  DHS, Supra, note 18, p. 17, “. . . an underlying assumption is that if hardware devices are unmanaged, they are
probably vulnerable, and will be exploited if not removed or approved quickly.”
51
     SSA, ISSH Version 3.1, July 2013 § 11.5.
52
  There are many types of monitoring for hardware devices. Monitoring in the context of this review means to
ensure that the hardware device is at a reasonable system security level.
53
     Includes desktops, network devices, and Server/iSeries.
54
     SSA, ISSH Version 2.7, April 2013, Chapter 11 § 11.3.4.



SSA’s Process to Identify and Monitor the Security of Hardware Devices (A-14-13-13050)                              8
not enough information to determine whether SSA monitored the remaining 94 sampled
devices 55 (see Table 5).

                                     Table 5 – Monitoring Hardware Devices
                                                                                         Percent of Total
                                                         Number of Sampled              Sampled Hardware
                             State                       Hardware Devices                    Devices
        Centrally Monitored                                           59                            36
        Locally Assigned                                               9                             6
        Not Enough Information Available                              94                            58
                        TOTAL                                        162                           100

We determined that, of the 59 centrally monitored hardware devices, 55 were at a reasonable
system security level. However, SSA did not have sufficient information to make a
determination on the remaining four hardware devices. For the nine sampled hardware devices
assigned to local managers, four were not at a reasonable system security level and five did not
have enough information for us to make a determination. For the remaining 94 hardware
devices, we could not verify whether those devices were at a reasonable system security level. 56

SSA’s ISSH states that local managers are responsible for monitoring the use of approved
non-standard hardware. 57 Moreover, SSA’s ISSH 58 states local managers are responsible for
securing SSA-owned hardware. However, local staff we interviewed stated Headquarters or the
regional offices were responsible for monitoring hardware devices for reasonable system security
levels. Within the Office of Systems, the Office of Information Security develops and maintains
information security policies, standards, and procedures. The Office of Information Security
also manages the reporting and monitoring processes that ensure compliance with Government
policies. Additionally, the Office of Telecommunications and Systems Operations provides the
telecommunications infrastructure and network security and policies. SSA’s policies, in effect at
the time of our audit, are not clear on who is responsible for monitoring the hardware devices to
ensure they operate at a reasonable security level. In July 2013, after completion of our
fieldwork, SSA revised its policy, but the policy does not define roles and responsibilities for
monitoring the security of hardware devices.



55
  For 50 sampled hardware devices (TSRP telephones), SSA did not monitor these hardware devices for security
compliance, but stated that a TSRP telephone must meet the established security configuration before it can connect
to the network. SSA did not provide documentation to support that it installed the phones at a reasonable security
level. SSA could not locate 2 hardware devices, identify the owner of 21 hardware devices, and provide
documentation for 24 hardware devices.
56
  For 23 hardware devices, we could not locate the device to identify its system security level. For 71 of the
hardware devices, the Agency was unable to provide documentation showing the system security level.
57
  SSA, ISSH Version 2.7, April 2013, Chapter 11 § 11.3.4.a. Per SSA, non-standard hardware is purchased by
local offices.
58
     Id., Chapter 11 § 11.3.4.f.



SSA’s Process to Identify and Monitor the Security of Hardware Devices (A-14-13-13050)                            9
Federal guidelines 59 recommend that the Agency group that monitors security should define
which hardware devices and operating systems they support and clearly communicate this
information to those who manage technical aspects – for SSA, this includes local managers.
Additionally, local support staff “. . . should be taught how to independently monitor and
remediate unsupported hardware equipment, operating systems, and software applications.” 60

We believe the Agency should resolve the inconsistencies among its policies and procedures for
monitoring hardware devices. Additionally, SSA should revise its policy to better describe and
define roles and responsibilities for monitoring security levels for all hardware devices. Finally,
SSA should ensure the hardware devices identified in this audit are at a reasonable security level.

CONCLUSIONS
According to DHS, cyber security is constantly shifting because of the relentless and dynamic
threat environment, emerging technologies, and new vulnerabilities. 61 Therefore, Federal
agencies must remain vigilant to defend information systems, especially in a resource-
constrained environment, balancing system security with operational capability.

While the Agency has a process to identify hardware devices connected to its network, we
determined the Agency’s inventory was incomplete and inaccurate. Additionally, SSA did not
approve all of the hardware devices connected to its network. Moreover, although SSA has
processes to monitor the security level of connected devices, these processes were inconsistent
with Agency policy in effect at the time of our audit.

RECOMMENDATIONS
We recommend the Agency:

1. Pursue implementing systems, through a risk-based process, to ensure only approved and
   security-compliant hardware devices are connected to its network.

2. Revise its policy to document who or which Agency component manages each hardware
   device connected to its network and is responsible for adequately securing these devices.
   The policy should better describe and define roles and responsibilities for monitoring security
   levels for all hardware devices.

3. Ensure hardware devices identified in this audit are at a reasonable security level.




59
  NIST SP 800-40 Version 2.0, Creating a Patch and Vulnerability Management Program, November 2005, p. 2-6,
2.2.3.1.
60
     Id.
61
     DHS, Supra, note 18, p. 4.



SSA’s Process to Identify and Monitor the Security of Hardware Devices (A-14-13-13050)                   10
AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix D for the full text of the Agency’s
comments. In addition to the formal comments, SSA provided a technical comment, which has
been addressed, where appropriate, in this report.




SSA’s Process to Identify and Monitor the Security of Hardware Devices (A-14-13-13050)   11
                                        APPENDICES




SSA’s Process to Identify and Monitor the Security of Hardware Devices (A-14-13-13050)
Appendix A – SCOPE AND METHODOLOGY
To accomplish the audit objective, we:

•   Reviewed applicable Federal laws, regulations, guidelines, and standards as well as Social
    Security Administration (SSA) policies and procedures.
•   Reviewed Federal Information Security Management Act of 2002 (FISMA) reporting
    requirements, and SSA’s Chief Information Officer section of the 2012 annual FISMA
    report.
•   Reviewed prior Office of the Inspector General reports.
•   Obtained a list of the 325,981 hardware devices connected to SSA’s network as of
    January 2013 and categorized them by operating system for sampling (see Table 2).
•   Selected a random sample of 183 hardware devices (see Hardware Device Sample section
    below).
•   Attempted to determine the system owner and location of the sampled hardware devices and
    device details (computer network address, machine name, unique hardware number) using
    the following SSA developed tools IP Address to Switch Port, IP Address Mapping Tool,
    OTSO Networking Database and PinView; and SSA’s implementation of Microsoft System
    Center Configuration Manager 2007.
•   Attempted to determine the actual type of hardware device for the “unknown” samples.
•   Interviewed system owners of the sampled hardware devices and obtained screen shots and
    procurement documentation.
•   Analyzed data obtained.
•   Compared the operating system version and release level to the most recent versions and
    releases supported by the manufacturer; we did not look at the specific system configuration
    of the hardware.

We obtained a sufficient understanding of information systems controls as they related to this
review. We assessed the completeness, accuracy, and validity of the data from the scanning
tools. We determined the data from SSA’s network scanning tool were sufficient to enumerate
hardware devices.

We conducted our audit from November 2012 through April 2013 in Baltimore, Maryland. The
entities reviewed were the Offices of Budget, Finance and Management; Disability Adjudication
and Review; Operations; and Systems. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.




SSA’s Process to Identify and Monitor the Security of Hardware Devices (A-14-13-13050)           A-1
Hardware Device Sample
In its FY 2012 FISMA report, 1 the Agency identified 276,165 hardware devices 2 connected to its
network. We obtained a more recent list and sorted the devices into 14 categories (see Table 2).

Based on the ZIP code provided by the Agency, we identified hardware devices within a 50-mile
radius of an audit office; this was approximately 39 percent of the total population. Because of
limited budget resources, we decided Office of Audit staff could conduct the interviews and
on-site inspections within a 50-mile radius of their office. However, during our review, we
decided to conduct telephone interviews of local staff to save additional monies. From the list of
hardware devices within a 50-mile radius of an audit office, we randomly selected 50 items each
from the Desktop and Input/Output peripheral categories (100 sample items), since they were the
2 categories that comprised 50 percent of the total population. We randomly selected
50 unknown hardware devices. We also randomly selected 3 items from the remaining
11 categories (33 sample items). The total sample size was 183.

We attempted to identify a system owner 3 for each of the sampled hardware devices from the
network address 4 provided by the Agency’s network scanning tool. The Agency did not have a
tool to identify a system owner based on the network address of a device. Instead, SSA
identified tools to assist us in our research but stated the tools were not designed for this
function. As we conducted our review, we removed nine sampled hardware devices from our
population because the devices moved on the network. For these sampled hardware devices, we
were unable to determine whether the hardware device was the same hardware device identified
during the original network scan results received from SSA. As a result, our sample size
decreased from 183 to 174.

Because SSA’s scanning tool incorrectly identified some Input/Output peripherals, we
reclassified those devices based on what the devices actually were— Telephone System
Replacement Project (TSRP) equipment (see Table 2). Consequently, the percentage of
hardware devices categorized as Input/Output Peripherals and TSRP telephone categories
changed. TSRP telephone was now the second largest hardware category (originally it was
fourth), and Input/Output Peripherals were fourth (originally second)—effectively the categories
switched places. In this instance, the misidentification of hardware equipment is a lower risk to
the Agency, since SSA monitors TSRP telephones but does not monitor Input/Output
Peripherals. Because of this adjustment for percent of total in 2 hardware categories, we
changed our sample; reducing it to 177 hardware devices.




1
    SSA, Chief Information Officer Section Report, 2012 Annual FISMA Report.
2
 The FY 2012 FISMA population and the most recent inventory difference may be due to purchases and retirement
as well as devices and networks that are off, not operational, or disconnected from the network.
3
    Person responsible for the operation and maintenance of the hardware device.
4
    A unique way to identify the location of a hardware device on a network.



SSA’s Process to Identify and Monitor the Security of Hardware Devices (A-14-13-13050)                    A-2
Additionally we found some hardware devices were removed from the network. Therefore, we
altered our sample size from 183 to 162 hardware devices as shown in Table A-1 below.

                                       Table A–1: Sample Size Changes
                          Reason for Change                                 Added        Removed          Sample
                                                                                                           Size
    Starting Sample Size                                                                                      183
    Hardware Devices Moved on the Network                                                     9               173
    Incorrectly Identified Input/Output Devices                                              37               137
    Extra Input/Output Peripheral Samples                                                     7               130
    Extra Telephone System Replacement Project Samples                                        3               127
    New Telephone System Replacement Project Samples 5                        50                              177
    Devices No Longer Connected to the Network                                               15               162
                        Ending Sample Size                                                                    162




5
    Since they were one of the two hardware categories that now made up 50 percent of the total population.



SSA’s Process to Identify and Monitor the Security of Hardware Devices (A-14-13-13050)                              A-3
Appendix B – MISSING DEVICE IDENTIFIERS
The following table details the hardware categories and the missing identifying information
(machine name, serial number, unique hardware number). 1 Knowing all identifying information
helps the Agency rapidly find the specific security control for hardware equipment that has been
compromised or breached or is in need of mitigation. Additionally, it can aid in determining
location of, and person responsible for, the hardware equipment.




                                                                                                                                                                 Virtual Machine

                                                                                                                                                                                   Server (iSeries)
                                                                                                                                                Storage Device
                                                              Multi-Platform
                                             I/O Peripheral




                                                                                              Video Device



                                                                                                                       TSRP Phone

                                                                                                                                    Appliance
                                                                                                             Unknown
                                   Desktop




                                                                               Server




                                                                                                                                                                                                      Total
                                                                                        UPS
           Missing
         Information
     Machine Name Only                                        2                1                             13                     1           3                                                     20
     Serial Number Only                                                                                       9                                                                                        9
     Unique Hardware                                                                                          6        2                                                           2                  10
     Number and Serial
     Number
     Machine Name,                 1                          1                               1              6                                                                                        9
     Unique Hardware
     Number, and Serial
     Number
           TOTAL                   1                          3                1              1              34        2            1           3                                  2                  48




1
    The machine name is the name assigned to a hardware device connected to the network.



SSA’s Process to Identify and Monitor the Security of Hardware Devices (A-14-13-13050)                                                                                                                B-1
Appendix C – GLOSSARY OF TERMS
This section provides a glossary of terms used within this report. While these terms may have
broader definitions, we defined them as we used them in the context of this review.

Adequate Security/Adequately Secure – security commensurate with the risk and magnitude of
the harm resulting from the loss, misuse, or unauthorized access to or modification of
information, assuring that systems operate effectively and provide appropriate confidentiality,
integrity, and availability. 1

Appliance – see Hardware Category.

Approved to be Connected – any item procured through an SSA-sanctioned requisition process.

Asset Management –activities across the enterprise related to items that have value (to include,
but not limited to, information technology systems, hardware, software, and networks).

Automated capability – product or report is generated by a computer. 2

Continuous Monitoring – a technique to address the security impacts on an information system
resulting from changes to the hardware, software, firmware, or operational environment. 3

Cyber-Attack – an attempt to disrupt, disable, destroy, or maliciously control a computer
environment; or destroy the integrity of or steal the data on a computer network or system.

Cyber Security – measures taken to protect a computer or computer system against
unauthorized access or cyber-attack.

Desktop – see Hardware Category.

Digital Copiers – device that uses optical technology to scan documents, store the image, and
then print the stored image.

Hardware Category – groups used to classify SSA’s hardware devices.




1
 Office of Management and Budget Circular No. A-130, Appendix III, Security of Federal Automated Information
Resources, A.2.a
2
 Department of Homeland Security, FY 2012 Chief Information Officer Federal Information Security Management
Act Reporting Metrics, p. 19.
3
 National Institute of Standards and Technology SP 800-37 Revision 1, Guide for Applying the Risk Management
Framework to Federal Information Systems, February 2010, page G-1.



SSA’s Process to Identify and Monitor the Security of Hardware Devices (A-14-13-13050)                     C-1
        Appliance – hardware designed for a specific information technology function in a
        closed architecture that may contain an operating system, storage, and specific
        applications; they may be external to a hardware device or internal (embedded devices).

        Desktop –a type of computer used in a stationary location.

        Input/Output Peripheral – device assigned a network address that inputs or outputs
        data.

        Multi-Platform – devices whose operating system could run on hardware devices falling
        into more than one hardware category on SSA’s network.

        Network Devices – includes routers, switches, load balancers, and firewalls.

        Private Branch Exchange – an in-house telephone switching system hat interconnects
        telephone extensions.

        Server – computer on a network that manages access to a centralized resource or services
        in a network.

        Server/iSeries – is IBM's (AS/400) midrange server.

        Storage Device – hardware devices capable of holding information and includes disk
        storage, tape drives and tape libraries.

        TSRP Phone – telephones deployed in SSA’s implementation to transport voice traffic
        over its network.

        Uninterruptable Power Supply – device that provides backup power when the electrical
        power fails or drops to an unacceptable voltage level.

        [Unknown] – devices for which the operating system could not be determined when
        scanned to identify the population of devices connected to the Agency’s network.

        Video Devices – includes video equipment for the audio-video conferencing as well as
        the cameras used for security.

        Virtual Machine – software that emulates a physical computing environment.

Hardware Device – includes any machine assigned a network address and connected to the
Agency’s network.

Input/Output Peripheral – see Hardware Category.

Machine Name – the name assigned to a hardware device connected to the network.

Multi-Platform – see Hardware Category.



SSA’s Process to Identify and Monitor the Security of Hardware Devices (A-14-13-13050)       C-2
Network Address – unique way to identify the location of a hardware device on a network.

Network Devices – see Hardware Category.

Network Scanning Tool – application that examines the network systematically to obtain data
about connected hardware devices.

Operating System – software that controls the processes of a hardware device.

Sanctioned Requisition Process – term used within SSA’s Information Systems Security
Handbook to describe how SSA procures hardware devices.

Security Controls – safeguards and countermeasures prescribed for IT systems designed to
protect the confidentiality, integrity, and availability of information processed, stored, and
transmitted by those IT systems.

Server – see Hardware Category.

Server/iSeries – see Hardware Category.

Storage Device – see Hardware Category.

Switch – a device that channels data and determines its intended hardware destination.

System Monitoring – collection and display of real-time performance data for a local computer
or remote computers according to defined criteria.

System Owner – the individual or organizational unit responsible for the operation and
maintenance of the hardware device.

System Security Level – operating system version and release supported by manufacturer.

Threat environment – the circumstances, objects, or conditions by which surround the potential
for a threat-source to exercise (accidentally trigger or intentionally exploit) a specific
vulnerability.

Uninterruptable Power Supply – see Hardware Category.

Unknown Hardware Devices – see Hardware Category.

Unmanaged Devices – devices not assigned to a particular person or group at such a level as to
effectively assign responsibility.

Video Devices – see Hardware Category.

Virtual Machine – see Hardware Category.




SSA’s Process to Identify and Monitor the Security of Hardware Devices (A-14-13-13050)           C-3
           Appendix D – AGENCY COMMENTS




                                             SOCIAL SECURITY

MEMORANDUM


Date:      September 13, 2013                                                                       Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “The Social Security Administration’s Process to
           Identify and Monitor the Security of Hardware Devices Connected to its Network”
           (A-14-13-13050)--INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           SSA’s Process to Identify and Monitor the Security of Hardware Devices (A-14-13-13050)                   D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“THE SOCIAL SECURITY ADMINISTRATION’S PROCESS TO IDENTIFY AND
MONITOR THE SECURITY OF HARDWARE DEVICES CONNECTED TO ITS
NETWORK” (A-14-13-13050)

Recommendation 1

Pursue implementing systems, through a risk-based process, to ensure only approved and
security-compliant hardware devices are connected to its network.

Response

We agree. We will continue our efforts to pursue, procure, and implement solutions to ensure
the identification of connected devices on our network. We have implemented the foundational
steps in enumerating all connected devices to identify if they are authorized or unauthorized.
With our recently implemented Hardware, Software, and Platform Configuration Policy, we
provide clear guidance for security compliance, requiring users to select from an authorized list
of hardware, software, and platforms that follow security configuration guidelines. Our new
policy was a prerequisite for any additional enhancement in ensuring only security compliant
devices are connected.

Recommendation 2

Revise its policy to document who or which Agency component manages each hardware device
connected to its network and is responsible for adequately securing the device. The policy
should better describe and define roles and responsibilities for monitoring security levels for all
hardware devices.

Response

We agree. On July 19, 2013, we published a revised Information Systems Security Handbook,
combining Chapter 11, “Hardware, Software, and Platform Configuration Policy” with Chapter
17, “Removable Media and Protection from Data Loss.” However, the revised policy clearly
addresses the issues of hardware security levels by using and relying on agency standard
configurations and states the expectations and responsibilities of the Information Technology
(IT) Security Staff, local managers and system owners for these as well as for any approved
exceptions.

Recommendation 3

Ensure hardware devices identified in this audit are at a reasonable security level.




SSA’s Process to Identify and Monitor the Security of Hardware Devices (A-14-13-13050)           D-2
Response

We agree. We have implemented an effective penetration-testing program to complement the
existing processes for identifying vulnerabilities. The penetration-testing program assists in
identifying security gaps that may still exist in the overall IT security program, defining areas of
necessary improvements. We are confident the penetration-testing program will assist us in
identifying vulnerabilities and reducing the risks to our IT systems.




SSA’s Process to Identify and Monitor the Security of Hardware Devices (A-14-13-13050)           D-3
Appendix E – MAJOR CONTRIBUTORS
Brian Karpe, Director, Information Technology Audit Division

Mary Ellen Moyer, Audit Manager, Information Technology Audit Division

Jan Kowalewski, Auditor in Charge

Cheryl Dailey, Auditor




SSA’s Process to Identify and Monitor the Security of Hardware Devices (A-14-13-13050)   E-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
